NO. __________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

NICHOLAS HARRIS, Petitioner
vs.
CALIFORNIA, Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL,
SIXTH APPELLATE DISTRICT

CERTIFICATE OF SERVICE

I hereby certify that on this10th day of July, 2020, I mailed one copy
of the petition for writ of certiorari in Harris v. California and one copy of
the motion for leave to proceed in forma pauperis in Harris v. California by
depositing the documents in a United States mailbox with first-class postage
prepaid addressed to Bruce Ortega, Esq., Office of the Attorney General,
455 Golden Gate Avenue, Suite 11,000, San Francisco, CA 94102-3664.
The Attorney General represents respondent California. I further certify

that all parties required to be served have been served. This service has
been made in conformance with Rule 29.5(b) of the Rules of the Supreme
Court of the United States.

William M. Robinson
Attorney for Petitioner,
Nicholas Harris

1

